BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae First Liberty
Institute in Support of Petitioners in 20-1678, Daniel
Z. Crowe, et al. v. Oregon State Bar, et al., was sent via
Two Day Service to the U.S. Supreme Court, and 3
copies were sent via Two Day Service and e-mail to the
following parties listed below, this 28th day of June
2021:
Jacob H. Huebert
Goldwater Institute
500 E. Coronado Rd.
Phoenix, AZ 85004
(602) 462-5000
jhuebert@goldwaterinstitute.org

Counsel for Petitioners
Steven M. Wilker
Tonkon Torp LLP
888 SW Fifth Avenue
Suite 1600
Portland, OR 97204
(503) 802-2040
steven.wilker@tonkon.com

Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Kelly J. Shackelford
Counsel of Record
First Liberty Institute
2001 West Plano Parkway
Suite 1600
Plano, TX 75075
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 28, 2021.

E~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

bp&,P-L
11--,3

Date:

Notary Public
[seal]

-------AMY TRIPLETT MORGAN
Attorney al Law

